     DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303
March 16, 2011


Report Number: A-04-07-00031

Mr. Steve Bishop
Director of Finance
CIGNA Government Services
Two Vantage Way
Nashville, TN 37228

Dear Mr. Bishop:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of CIGNA Government Services Part B Final
Administrative Cost Proposals for Fiscal Years 2004 Through 2006. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-07-00031 in all correspondence.

                                                    Sincerely,



                                                    /John T. Drake, Sr./for
                                                    Peter J. Barbera
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Mr. Steve Bishop


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF 

      INSPECTOR GENERAL 





      REVIEW OF CIGNA
GOVERNMENT SERVICES PART B
 FINAL ADMINISTRATIVE COST
 PROPOSALS FOR FISCAL YEARS
     2004 THROUGH 2006




                      Daniel R. Levinson 

                       Inspector General 


                         March 2011 

                        A-04-07-00031 

                         Office ofInspector General
                                          http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG). as mandated by Public Law 95-452, as amended, is
to protect the integrity ofthe Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry conceming the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig .hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Part B program includes certain
medical equipment and related services, including durable medical equipment and other medical
services. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program by contracting with private organizations to process and pay claims for services
provided to eligible beneficiaries.

CIGNA is a holding company for Connecticut General Life Insurance Company, the legal entity
that holds the Medicare contracts. CIGNA HealthCare, one of the main lines of business (also
called operating divisions), administered the Medicare contracts via CIGNA Government
Services, a wholly owned subsidiary of CIGNA. During the period October 1, 2003, through
September 30, 2006, CMS contracted with CIGNA to serve as the Medicare Part B carrier for the
States of Tennessee, North Carolina, and Idaho.

CIGNA’s Medicare Part B carrier contract with CMS provided for reimbursement of allowable
administrative costs incurred. Such administrative costs include the direct costs of administering
the contract as well as allocations of certain indirect costs of services or assets used by Medicare
and other entities. CIGNA claimed reimbursement of administrative costs through submission to
CMS of a Final Administrative Cost Proposal (FACP). For October 1, 2003, through September
30, 2006 (fiscal years (FY) 2004 through 2006), CIGNA claimed $139,296,260, including
$69,886 in forward funding, in reimbursement for direct and indirect costs related to its Medicare
Part B carrier contract.

OBJECTIVE

Our objective was to determine whether the administrative costs claimed on CIGNA’s Part B
FACPs for FYs 2004 through 2006 were reasonable, allocable, and allowable for Medicare
reimbursement.

SUMMARY OF FINDINGS

Of the $139,226,374 in administrative costs reviewed, CIGNA appropriately claimed
$138,656,789 on its FACPs for FYs 2004 through 2006. However, we identified $569,585,
composed of $47,757 of direct costs and $521,828 in indirect costs that CIGNA did not support
as reasonable, allocable, or allowable for Medicare reimbursement because it did not comply
with Federal requirements for maintaining adequate accounting records covering the use of
funds.




                                                 i
RECOMMENDATIONS

We recommend that CIGNA:

   	 reduce direct costs claimed on its FACPs by $47,757,

   	 reduce indirect costs claimed on its FACPs by $521,828, and

   	 strengthen its procedures for maintaining documentation to support costs included on its
      FACPs.

CIGNA COMMENTS

In comments on our draft report, CIGNA agreed with most of our findings, except for those
related to caption accounts 1709 (Legal Services/Fees) and 1494 (Hardware/Software
Maintenance). CIGNA stated that unallowable legal expenses were accumulated in the expense
center Outside Counsel SEC Law – Central (expense center 5000151T), and it agreed with
removal of this expense center. However, because of this removal, caption account 1709 would
no longer include unallowable legal fees. Accordingly, CIGNA did not agree that the entire
caption account (1709) should be excluded. With regard to caption account 1494
(Hardware/Software Maintenance), CIGNA stated that it obtained and would provide invoices
supporting expenses we identified as unsupported. It believed that the additional documentation
would show that these expenses were allowable for allocation to CIGNA Government Services.

CIGNA’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We concurred with CIGNA’s comments regarding caption account 1709 (Legal Services/Fees),
and we revised the report to allow caption account 1709 expenses, except expense center
5000151T, as pooled expenses allocable to the Medicare contract. With regard to caption
account 1494 (Hardware/Software Maintenance), CIGNA did not provide invoices supporting
these expenses with its comments to the draft report. Therefore, we could not determine whether
these expenses were allowable for allocation to CIGNA Government Services, and we maintain
that caption account 1494 is not allocable to Medicare.




                                               ii
                                                   TABLE OF CONTENTS


                                                                                                                                             Page

INTRODUCTION                   ................................................................................................................ 1


          BACKGROUND ...........................................................................................................               1     

              Medicare Program..............................................................................................                   1

              Connecticut General Life Insurance Company Medicare Contract ...................                                                 1

              Prior Audit of CIGNA’s Corporate Cost Allocation Methodology ...................                                                 1

              CIGNA’s Methodology for Allocating Costs ....................................................                                    1


          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                          2

               Objective ............................................................................................................          2     

               Scope ................................................................................................................          2     

               Methodology ......................................................................................................              2     


FINDINGS AND RECOMMENDATIONS .......................................................................... 4 


          FEDERAL REQUIREMENTS...................................................................................... 4                               


          DIRECT COSTS NOT SUPPORTED........................................................................... 5 


          INDIRECT COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, 

            AND ALLOWABLE ................................................................................................. 5 


          RECOMMENDATIONS ............................................................................................... 6                          


          CIGNA COMMENTS ................................................................................................... 6                       


          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 7 


OTHER MATTERS ................................................................................................................ 7 


APPENDIXES


          A: SAMPLING METHODOLOGY

          B: 	CIGNA’S PART B ADMINISTRATIVE COSTS CLAIMED FOR

                 FISCAL YEARS 2004 THROUGH 2006 


          C: 	RESULTS OF REVIEW OF CIGNA’S PART B ADMINISTRATIVE COSTS FOR

                 FISCAL YEARS 2004 THROUGH 2006 


          D: CIGNA COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Part B program includes certain
medical equipment and related services, including durable medical equipment and other medical
services. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program by contracting with private organizations to process and pay claims for services
provided to eligible beneficiaries.

Connecticut General Life Insurance Company Medicare Contract

CIGNA is a holding company for Connecticut General Life Insurance Company, the legal entity
that holds the Medicare contracts. CIGNA HealthCare (CHC), one of the main lines of business
(also called operating divisions), administered the Medicare contracts via CIGNA Government
Services, a wholly owned subsidiary of CIGNA. During the period October 1, 2003, through
September 30, 2006, CMS contracted with CIGNA to serve as the Medicare Part B carrier for the
States of Tennessee, North Carolina, and Idaho.

CIGNA’s Medicare Part B carrier contract with CMS provided for reimbursement of allowable
administrative costs incurred. Such administrative costs include the direct costs of administering
the contract as well as allocations of certain indirect costs of services or assets used by Medicare
and other entities. CIGNA claimed reimbursement of administrative costs through submission to
CMS of a Final Administrative Cost Proposal (FACP). For October 1, 2003, through September
30, 2006 (fiscal years (FY) 2004 through 2006), CIGNA claimed $139,296,260 in
reimbursement for direct and indirect costs related to its Medicare Part B carrier contract.

Prior Audit of CIGNA’s Corporate Cost Allocation Methodology

The Office of Inspector General (OIG) previously addressed CIGNA’s corporate cost allocation
methodology in a report entitled Review of CIGNA HealthCare Medicare Administration’s
Proposed Corporate Cost Allocation Methodology. OIG considered the allocation methodology
to be reasonable, but it determined that the allocation system should be reviewed yearly to ensure
a reasonable allocation to Medicare.

CIGNA’s Methodology for Allocating Costs

For FYs 2004 through 2006, CIGNA used the previously reviewed cost allocation methodology
as described in general below.

CIGNA uses caption accounts and expense centers to group costs for allocation. A caption
account is used to record and summarize similar expenses (e.g., caption account 0801, Salaries-



                                                 1

FT Benefit Eligible, records salaries for full-time employees). The caption accounts are
equivalent to a chart of accounts used in the general ledger. Expenses are accumulated by
caption account (type of expense) and expense center (business unit).

CIGNA allocated indirect expenses to Medicare using three expense pools representing actual
overhead expenses:

   	 a pool of corporate expenses (CIGNA pool),

   	 a pool of CIGNA HealthCare division expenses (CHC pool), and

   	 a pool of CIGNA Information Technology (CIT) expenses (CIT pool).

CIGNA allocated expenses in the CIGNA pool and CHC pool to its operating divisions,
including Medicare, based on a ratio of total Medicare expenses to total divisional expenses.
CIGNA allocated expenses in the CIT pool to its operating divisions, including Medicare, based
on utilization rates developed by CIT.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs claimed on CIGNA’s Part B
FACPs for FYs 2004 through 2006 were reasonable, allocable, and allowable for Medicare
reimbursement.

Scope

Our review was limited to $139,226,374 in direct and indirect administrative costs claimed by
CIGNA on its FACPs submitted to CMS for FYs 2004 through 2006. We did not review
$69,886 in forward funding claimed because the funds had not yet been expended at the time of
our audit.

We limited our internal control review to controls related to the recording and reporting of costs
on the FACPs. We accomplished our objectives through substantive testing.

We conducted our fieldwork at CIGNA offices in Nashville, Tennessee.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Medicare laws, regulations, and guidelines including the Federal
      Acquisition Regulation (FAR) section 31.201-2(d); the Medicare Financial Management
      Manual, Chapter 2, section 190.3; and CIGNA’s contract with CMS;



                                                 2

       	 reconciled FACPs from FYs 2004 through 2006 to CIGNA’s accounting records;

       	 interviewed CIGNA officials about its cost accumulation processes for FACPs and
          gained an understanding of its cost allocation systems;

       	 tested direct salaries and wages by selecting a stratified random sample of 105 monthly
          employee salary payments (Appendix A) and by:

               o	 tracing the payments to payroll journals, corporate bonus plans, and personnel
                  records;

               o	 verifying the amount paid was consistent with the employee’s pay rate;

               o	 verifying the salary was charged to the correct expense center;

               o	 reconciling the number of hours paid to time sheets; and

               o	 reviewing approvals of time sheets;

       	 tested certain other direct costs by selecting 11 caption accounts, judgmentally sampling
          30 expense items in each selected caption account, and tracing these 330 expense items to
          supporting documents including invoices, expense vouchers, reports, and journal entries;1

       	 tested certain other direct costs by selecting two caption accounts and tracing all expense
          items to supporting documents including invoices, reports, and journal entries;2

       	 reviewed CIGNA’s corporate cost allocation methodology, including comparing it to the
          previously reviewed methodology and reviewing the accuracy and consistency of
          allocation calculations during the audit period;

       	 performed a general review of indirect cost allocations for reasonableness and allocability
          to Medicare by ensuring consistency of all 568 expense centers for FY 2004 with prior
          OIG audit findings and by obtaining explanations for new and deleted expense centers;

       	 tested indirect costs by judgmentally sampling 88 expense centers for FYs 2005 and 2006
          and reviewing them for reasonableness and allocability to Medicare;3

       	 tested indirect costs by judgmentally sampling 41 caption accounts for FYs 2004, 2005,
          and 2006 and reviewing them for reasonableness and allocability to Medicare;4 and

1
    We selected these caption accounts based on materiality and variance analysis.
2
    We selected these caption accounts based on materiality and variance analysis.
3
    We selected these expense centers based on materiality and variance analysis.
4
    We selected these caption accounts based on the nature of the account.


                                                           3

   	 provided our audit adjustments to the indirect cost pools to CIGNA and requested that
      CIGNA revise its cost allocations accordingly to determine the total unallowable
      expenses allocated to Medicare based on CIGNA’s methodology for allocating costs.

See Appendix A for details on our sampling methodology, Appendix B for costs claimed, and
Appendix C for results of review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Of the $139,226,374 in administrative costs reviewed, CIGNA appropriately claimed
$138,656,789 on its FACPs for FYs 2004 through 2006. However, we identified $569,585,
composed of $47,757 of direct costs and $521,828 in indirect costs that CIGNA did not support
as reasonable, allocable, or allowable for Medicare reimbursement because it did not comply
with Federal requirements for maintaining adequate accounting records covering the use of
funds.

FEDERAL REQUIREMENTS

The contract between CMS and CIGNA set forth principles of reimbursement for administrative
costs. The contract cited the FAR, Title 48, Chapter 1 of the CFR, as regulatory principles to be
followed for application to the Medicare contract and provided additional guidelines for specific
cost areas.

FAR 31.201-2(d) (48 CFR § 31.201-2(d)) states that CIGNA is responsible for “...maintaining
records, including supporting documentation, adequate to demonstrate that costs claimed have
been incurred, are allocable to the contract, and comply with applicable cost principles....”

Additionally, Chapter 2 section 190.3 of the Medicare Financial Management Manual states that
the contractor must maintain records “...in such detail as will properly reflect all net costs, direct
and indirect, ... for which reimbursement is claimed under the provisions of the agreement.”

Pursuant to FAR 31.201-4 (48 CFR § 31.201-4), which establishes guidelines for determining
allocability of contract costs, a cost “is allocable if it is assignable or chargeable to one or more
cost objectives on the basis of relative benefits received or other equitable relationship.”

FAR 31.202(a) (48 CFR § 31.202(a)) states, “All costs specifically identified with other final
cost objectives of the contractor are direct costs of those cost objectives and are not to be charged
to the contract directly or indirectly.”




                                                   4

FAR 31.204(a) (48 CFR § 31.204(a)) states that “[c]osts are allowable to the extent they are
reasonable, allocable, and determined to be allowable....”

DIRECT COSTS NOT SUPPORTED

The majority of the direct costs claimed on the FACPs were adequately supported. However,
contrary to 48 CFR § 31.201-2(d), CIGNA did not provide any supporting documentation for
direct costs totaling $47,757 as follows:

   	 $16,009 claimed in FY 2006 for outside professional services and

   	 $31,748 claimed in FYs 2004 through 2006 for depreciation expenses.

INDIRECT COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, OR
ALLOWABLE

The majority of the indirect costs claimed on the FACPs were adequately supported and
allowable. However, the expense pools used to allocate corporate expenses to Medicare
included executive compensation and various other expenses in two expense centers and two
caption accounts that were not supported or were not allocable to Medicare and were therefore
unallowable for Medicare reimbursement. In total, these expense pools included approximately
$20.9 million in unallowable expenses, resulting in unallowable Medicare reimbursement of
$521,828, including:

   	 Executive compensation included bonuses in various expense centers. Contrary to 48
      CFR § 31.201-2(d), CIGNA did not provide support demonstrating how the bonus
      amounts were determined or that they were reasonable. Therefore, these bonuses,
      totaling $14,064,765, should not have been included in the expense pools used to allocate
      expenses to Medicare.

   	 Contrary to 48 CFR § 31.201-4 and § 31.202(a), the following two expense centers were
      not supported as allocable to the Medicare contract and were, therefore, unallowable:

           o	 Outplacement Central (expense center 5000130T) accumulates non-executive
              outplacement expenses related to outside party services. These expenses, totaling
              $2,700,556 for FYs 2004 and 2005, are not considered allocable to Medicare.

           o	 Outside Counsel SEC Law – Central (expense center 5000151T) accumulates
              unallowable legal expenses associated with SEC finance and tax law. These
              expenses, totaling $534,365 for FYs 2004, 2005, and 2006, are not considered
              allocable to Medicare.

   	 Contrary to 48 CFR § 31.201-2(d), CIGNA did not provide any support for two caption
      accounts. Because we could not evaluate the extent to which these costs were reasonable,
      allocable, and allowable as required by 48 CFR § 31.204(a), the following caption
      accounts should be excluded from the indirect costs allocated to Medicare:


                                                5

               o	 Hardware/Software Maintenance (caption account 1494) accumulates costs for
                  computer related hardware and software maintenance. These expenses, totaling
                  $3,086,556 for FYs 2005 and 2006, are not considered allowable for Medicare
                  reimbursement.

               o	 HR&S Warehousing (caption account 2305) accumulates warehousing costs.
                  These expenses, totaling $550,882 for FYs 2005 and 2006, are not considered
                  allowable for Medicare reimbursement.

CIGNA’s removal from the indirect cost pools of the $20,937,124 in expenses and its revision of
the indirect cost allocations5 reduced indirect costs allocable to Medicare by $721,245.6 Of this
amount, $521,828 related to its Part B contract and $199,417 related to its Durable Medical
Equipment Regional Carrier contract.7

RECOMMENDATIONS

We recommend that CIGNA:

      	 reduce direct costs claimed on its FACPs by $47,757,

      	 reduce indirect costs claimed on its FACPs by $521,828, and

      	 strengthen its procedures for maintaining documentation to support costs included on its
         FACPs.

CIGNA COMMENTS

In comments on our draft report, CIGNA agreed with most of our findings, except for those
related to caption accounts 1709 (Legal Services/Fees) and 1494 (Hardware/Software
Maintenance). CIGNA stated that unallowable legal expenses were accumulated in the expense
center Outside Counsel SEC Law – Central (expense center 5000151T), and it agreed with
removal of this expense center. However, because of this removal, caption account 1709 would
no longer include unallowable legal fees. Accordingly, CIGNA did not agree that the entire
caption account (1709) should be excluded. With regard to caption account 1494
(Hardware/Software Maintenance), CIGNA stated that it obtained and would provide invoices
supporting expenses we identified as unsupported. It believed that the additional documentation
would show that these expenses were allowable for allocation to CIGNA Government Services.



5
    See the Background section above for CIGNA’s Methodology for Allocating Costs.
6
    This amount is composed of $174,541 and $546,704 per CIGNA’s Impact Summary at Appendix D.
7
 See CIGNA’s Impact Summary at Appendix D and the Office of Inspector General report number A-04-07-00032,
Review of CIGNA Government Services Durable Medical Equipment Regional Carrier Final Administrative Cost
Proposals for Fiscal Years 2004 Through 2006.


                                                        6

CIGNA’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We concurred with CIGNA’s comments regarding caption account 1709 (Legal Services/Fees),
and we revised the report to allow caption account 1709 expenses, except expense center
5000151T, as pooled expenses allocable to the Medicare contract. With regard to caption
account 1494 (Hardware/Software Maintenance), CIGNA did not provide invoices supporting
these expenses with its comments to the draft report. Therefore, we could not determine whether
these expenses were allowable for allocation to CIGNA Government Services, and we maintain
that caption account 1494 is not allocable to Medicare.

                                    OTHER MATTERS

As identified in the previous Office of Inspector General audit of CIGNA’s Part B costs,
CIGNA’s corporate capitalization policy is not consistent with Appendix B of its CMS contract,
and CIGNA’s software capitalization policy is not consistent with Federal criteria.




                                               7

APPENDIXES 

                                                                                    Page 1 of 1


                        APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of 22,994 “employee months” related to $74,923,351 in Part B salaries
and wages that were charged to Medicare from October 1, 2003, through September 30, 2006.
An “employee month” included one employee’s salaries, wages, and related fringe benefits for
one month.

SAMPLING FRAME

For fiscal years (FYs) 2004, 2005, and 2006, we obtained three Microsoft Excel files detailing
the individual employees’ monthly salaries and wages that were recorded as expenses in general
ledger salary account code 0801 and charged to Medicare on the Final Administrative Cost
Proposal (FACP). Total salaries and wages for each of the 3 FYs were reconciled to the related
general ledger and FACP.

The sampling frame included:

   	 7,208 “employee months” related to Part B salary and wages of $22,604,278 for FY
      2004,

   	 7,810 “employee months” related to Part B salary and wages of $25,193,555 for FY
      2005, and

   	 7,976 “employee months” related to Part B salary and wages of $27,125,518 for FY
      2006.

SAMPLE UNIT

The sample unit was an “employee month.”

SAMPLE DESIGN

We used a stratified random sample of “employee months” from the general ledger salary and
wages account (0801) for FYs 2004, 2005, and 2006. Each FY represented a separate stratum.

SAMPLE SIZE

We selected a sample of 105 “employee months” by selecting 35 items from each of the 3 FYs
(2004, 2005, and 2006).

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OIG/OAS) statistical
software to generate the random numbers.
                                                                         Pagelofl


APPENDIX B: CIGNA'S PART B ADMINISTRATIVE COSTS CLAIMED FOR 

                   FISCAL YEARS 2004 THROUGH 2006


                        FY 2004         FY 2005         FY 2006          Total
                        Expenses        Expenses       Expenses        Expenses
                        Claimed         Claimed        Claimed         Claimed
 Salaries & Wages        $21,370,227    $22,927,239    $24,682,148     $68,979,614
 Fringe Benefits           5,922,240      6,905,439      7,868,377      20,696,056
 Facilities or
 Occupancy                 2,793,986      3,362,264      3,194,754       9,351,004
 EDP Equipment             8,690,087      8,851,860      7,970,153      25,512,100
 Subcontracts                173,279         78,394         57,188         308,861
 Outside Professional
 Services                    311,822        569,474        824,102       1,705,398
 Telephone &
 Telegraph                   383,591        301,790        224,804         910,185
 Postage and Express       9,085,425     1l,098,724      7,155,840      27,339,989
 Furniture &
 Equipment                   288,755        325,566        259,590         873,911
 Materials & Supplies        679,567        609,597        562,627       1,851,791
 Travel                      268,946        279,362        280,481         828,789
 Return on
 Investment                   279,342        306,970        275,166        861,478
 Miscellaneous              4,137,971      4,061,124      4,445,999     12,645,094
 Other                              0              0              0              0
 Credits                  (9,899,809)   (10,536,049)   (12,202,038)   (32,637,896)
 Forward Funding                    0         63,349          6,537         69,886

 Total                   $44,485,429    $49,205,103    $45,605,728    $139,296,260
                                                                                Pagelofl


   APPENDIX C: RESULTS OF REVIEW OF CIGNA'S PART B ADMINISTRATIVE
               COSTS FOR FISCAL YEARS 2004 THROUGH 2006


                                      Total       Total           Total          Total
                  Total Expenses     Expenses  Expenses         Allowable     Unallowable
 F'l scaI Y ear      Canne
                         I'd         Dt<
                                      e erred R    '
                                                 eVlewe d       E xpenses      E xpenses
2004                  $44,485,429           $0 $44,485,429      $44,394,438        $90,991
2005                    49,205,103     63,349   49,141,754       48,869,440        272,314
2006                    45,605,728       6,537  45,599,191       45,392,911        206,280

Total                $139,296,260     $69,886   $139,226,374   $138,656,789       $569,585
                      APPENDIX D: CIGNA COMMENTS 	                                    Page 1 of 4
Steve Bishop
Accounting Director




                                                                         A G o ve rnme n t

                                                                         Se rvi c e s

                                                                         Ro u t ing    7 95
May 27, 2010                                                             Tw o 	 V a n t age Way
                                                                         Na s hv ille , TN 3 7 22 1
                                                                         Telephone 61 5-782- 4 61 6
                                                                         Fa cs imil e 61 5-252-3650
                                                                         steph e n . bi s h op @ci gna .com
Peter J. Barbera
Regional Inspector General for Audit Services
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3Tl
Atlanta, GA 30303

Re: Audit Report No. A-04-07-00031

Dear Mr. Barbera:

This letter is in response to Audit Report No. A-04-07-00031, which noted an overstatement
of claimed costs on our Title XVIII Part B contract for the fiscal years 2004 - 2006 of
$569,585. The report indicates $47,757 of unallowable direct costs and $521,828 of
unallowable indirect costs.

CGS agrees with the two findings associated with the direct costs and will reduce our
claimed costs as follows:

    • 	 $16,009 in FY 2006 for outside professional services and;
    • 	 $10,511 in FY 2004, $5,498 in FY 2005 and $12,699 in FY 2006 for depreciation 

        expenses. 



As noted in the OIG report, the majority of the indirect costs claimed on the FACPs were
adequately supported and allowable. However, the expense pools used to allocate corporate
expenses to CGS included executive compensation and various other expenses in two
expense centers and three caption accounts that were deemed by the OIG to be not supported
or not allocable to CGS and were therefore noted as unallowable for Medicare
reimbursement. In total, these expense pools included about $20.9 million in unallowable
expenses, including:


    • 	 Executive compensation included bonuses in various expense centers - CGS agrees
        with this finding and removal of these bonuses, totaling $14,064,765 for FY 2004;
                                                                                  Page 2 of 4

May 27, 2010
Page 2



   • 	 Outplacement Central (expense center 5000130T) -this expense center accumulates
       non-executive outplacement expenses related to outside party services. CGS agrees
       with this finding and removal of these expenses, totaling $2,700,556 for FYs 2004
       and 2005;
   • 	 Outside Counsel SEC Law - Central (expense center 5000151 T) - this expense
       center accumulates unallowable legal expenses associated with SEC finance and tax
       law. CGS agrees with this finding and removal of these expenses, totaling $534,365
       for FYs 2004, 2005, and 2006;
   • 	 Legal Services/Fees (caption account l709) -this caption account accumulates costs
       for general legal services. CGS does not agree that this entire caption account should
       be excluded and had agreed to exclude EC 5000151 T noted above, which includes
       costs in caption account 1709, but not to exclude the entire 1709 caption account;
   • 	 Hardware/Software Maintenance (caption account 1494) - this caption account
       accumulates costs for computer related hardware and software maintenance. CGS
       agrees with this finding as being not supported during the audit, however, we have
       been able to obtain supporting documents for expenses in this caption account and
       will provide to the OIG. Pending approval of this support we have included theses
       expenses as unallocable to CGS, totaling $3,086,556 for FYs 2005 and 2006 (see
       further discussion below);
   • 	 HR&S Warehousing (caption account 2305) -this caption account accumulates
       warehousing costs. CGS agrees with this finding and removal of these expenses,
       totaling $550,882.

The attached schedule shows each of the individual findings noted above, by fiscal year, and
the resulting impact on the home office allocation to CGS and the allocation of the findings
to the Part Band DMERC contracts.

The exclusion of the $20.9 million from the expenses pools results in unallowable Medicare
reimbursement of $721,245, of which $521,828 would be allocated to the Part B contract.
The total amount deemed unallowable or unallocable for Medicare reimbursement is
$769,002 of which $569,585 would be allocated to the Part B contract. CGS will adjust its
claimed expenses on the Part B contract based on the attached schedule, pending resolution
of the item noted below.

Additional Discussion of Finding on Caption Account 1494
Caption account 1494 was deemed not allowable, allocable, or reasonable due to lack of
support during the audit fieldwork. In particular it was noted there was a substantial
increase in the expense recorded in this caption account from 2004 to 2005 and 2006. In
researching the increase, CGS identified that the majority of expense in this caption account
resides in the CIT hierarchy and is therefore a component of the IT adjustment factor.
                                                                               Page 3 of 4

May 27, 2010
Page 3



In 2005,85% of the expense in caption account 1494 in the CIT hierarchy was charged to
expense center 862l. In 2006,39% of the expense in the caption account was charged to
expense center 8621 and 38% was charged to expense center 93C3 for a total of 77%
coverage.

Both expense centers 8621 and 93C3 capture IT "Enterprise Expenses." Enterprise expense
represents costs of goods or services for all ofCIGNA. The expenses are not specifically
identifiable to one segment but are instead costs associated with IT infrastructure and
management. Examples of these types of costs would be data networks, information
protection, and Chief Information Officer.

CGS has obtained invoices that support the expenses in the above referenced expense
centers. The majority of these invoices are for maintenance on infrastructure equipment.
CGS believes these expenses are allowable for allocation to CGS and subsequent Medicare
reimbursement and will provide invoices in support of this caption account to the OIG.
Further, CGS has identified that in 2005 CIGNA obtained two dedicated maintenance
technicians from IBM which resulted in approximately $500,000 of additional expense over
the prior year. This was a change from the prior year as CIGNA had not used IBM
technicians previously that were fully dedicated to CIGNA work.

If the OIG subsequently deems these to be allowable and allocable expenses the amounts
noted on the attached schedule would need to be adjusted to remove this finding.

Please freeto contact Mike Logan at 615.782.4595 or myself at 615.782.4616 if you have
questions regarding this response.

Sincerely,

/Steve Bishop/

Steve Bishop


Cc: 	   Eric Bowen, OIG
        Joseph Turner, OIG
        Mike Logan, CGS
                                                                                                                                                                                                                                          Page 4 of 4
                                                                                                                CIGNA Government Services, LLC
                                                                                                               2004-2006 Administrative Cost Audit
                                                                                                                        Impact Summary



    Impact to Medicare Allocation                                                  Net Expenses Removed from Cost Pool.                                                                     Impact to Medicare Allocation *
                                                      "':-_--"
                                                             2004                         2005                      2006                     Total                ~_-,2",
                                                                                                                                                                       OO",:~:,:,"-:-_-,
                                                                                                                                                                                       2",
                                                                                                                                                                                         OO,,5,-_                      2006                   Total
    Executive Bonus                                    $      14,064,765          $                        $                         $        14,064,765          $           32,110    $                        $                        $           32,110
    5000130T-Outplacement Central                              2,271 974                       428,5 82                                        2,700556                       41 ,123                   9,643                                         50,766
    500015IT-O/S Council SEC Law                                 161,568                       265 ,751                  107,046                 534,365                       2924                     5,979                    2077                 10980
    1709-Legal Service Fees (Note 1)
    1494 Hardware/Software Maintenance
    2305 HR&S Warehousing
                                                                           -                   669,627
                                                                                               492,952
                                                                                                                       2,4 16,929
                                                                                                                           57,930
                                                                                                                                                3,086,556
                                                                                                                                                  550,882
                                                                                                                                                                                    -                     969
                                                                                                                                                                                                       11,089
                                                                                                                                                                                                                                 84.2 1
                                                                                                                                                                                                                                 1,121
                                                                                                                                                                                                                                                    1 05 3
                                                                                                                                                                                                                                                   12,210
    Total                                               $         16,498,307      $          1,856,912     $           2,581,905     $         20,937,124         $           76,157    $              27,680    $               3,282    $       107,119



    Impact on IT AdjustmentFactor                                    Amount Removed from CIT Allocable                                                                          ChlUlge in IT Adjustment Factor
                                                                 2004             2005                2006                                                            2004 Before          2004 Alter           ~   ~
    Executive Bonus                                     $            172,364 $                 $                                                                        0.71%                0.62%              (0.09%)
    5000130T-Outplacement Central                                    253490            68848
    500015IT-O/S Council SEC Law                                      18,079           42,813              17,609                                                 Oct-Dec '04 Before    Oct-Dec '04 After            IncJ(Dec
    1709-Legal Service Fees (Note 1)
    1494 Hardware/Software Maintenance
                                                                           -                        -
                                                                                               633 ,837
                                                                                                                              -
                                                                                                                       2,413 ,303
                                                                                                                                                                       8.01%                 5.02%                    (2. 99%)

    2305 HR&S Warehousing                                                                       79,726                     9,756                                                        JIUl-S     t '05 After       ~ ec
    Total                                               $            445,937      $            827,229     $           2,442,674                                                                 3.49%               (2.71%)

                                                                                                                                                                      2006 Before           2006 Alter               Inc/(Dec)
                                                                                                                                                                        8.34%                 5.53%                   (2.81%)

                                                                   bnpact of I T Adjustment Factor C h lUlge to Medicare Allocation *
                                                                 2004                 2005                   2006                Total
                                                        $             23 ,788 $            34,276 $               9,358 $              67,422

                                                                     bnpact of IT Adjustment Factor on CGS DirectEDP Costs,o
                                                                 2004                2005               2006                Total
                                                        $             11 ,311 $          289,415 $          245 ,978 $          546,705



    Overall Summary
    Total Reduction in Medicare allocation              $              99,945     $             61 ,956    $              12,640     $             174,541
    Adjustment to CGS direct EDP                                       11 ,311                 289,415                   245 ,978                  546,704
    Direct Costs Adjustments - Part B only                              6,350                   12,699                    28,708                    47,757

    Total Adjustment                                    $             117,606     $            364,070     $             287,326     $             769,002

    :Allocation to Contracts
    PmB                                                 $              84,642     $            259,6 15    $             177,571     $             521 ,828
    Part B - direct costs adjustments                                   6,350                   12,699                    28,708                    47,757
    DMERC                                                              26,614                   91 ,756                   81,047                   199,417

    Total                                               $             117,606     $            364,070     $             287,326     $             769,002

    '" Amounts shown are decreases to the allocation

    Note 1: The entire caption of1709 was not removed per agreement with the OIG. Only expenses in caption 1709 and expense center 5000151T were removed. The impact for this caption is included in 

    the impact for 5000151T 





C 'Iv1y Fil e s\Audi t and Odd JJb Compl ete or Passed \4..- 04 -D7-0003 1- 32 -3 3\FACP - Cigna\OOOO-CIG NA Respon se t o Dra ft Re ports-OOOO\Support for Resp ons exls                                                                      6/312010 51 2 PM
